AFFIDAVIT OF SERVICE
No. _ _ _ __

PETER CAPOTE, Petitioner,

v.
STATE OF ALABAMA, Respondent.
STATE OF NEW YORK

)
) ss.:
COUNTY OF NEW YORK )
Hayley T. Allis, being duly sworn, deposes and says: I am over 18 years of

age, employed by Bracewell LLP and not a party to this action.
On February 16, 2021, I served the following documents:
1. Petition for Writ of Certiorari, together with appendices, dated February
16, 2021,
2. Certificate of Compliance, dated February 16, 2021,
upon the parties herein by enclosing true copies thereof in a sealed properly
addressed postage paid Federal Express envelope for overnight delivery deposited
into the custody of the overnight delivery service prior to the latest time
designated by them for overnight delivery addressed as follows:
Steve Marshall
Morgan Shelton
Office of the Attorney General
501 WashingtonAvenue
Montgomery, AL 36130
1

In addition, on February 16, 2021, I served true copies of the aforesaid
documents, upon the attorneys for the parties herein by electronic mail to the
following addresses:
capitallit@ago.state.al.us
docketroom@ago.state.al. us
morgan.shelton@AlabamaAG.gov
'

Sworn to before me t his
16th day of February, 2021

2

